Washington, D.C. 20530

April 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Troy Baker v. United States of America,
S.Ct. No. 20-7231
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 17, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on April 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7231
BAKER, TROY
USA

KENNETH P. TABLEMAN
KENNETH P. TABLEMAN, P.C.
161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701
616-233-0455
TABLEMANK@SBCGLOBAL.NET

